App. 1
[LOGO]
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
=========================================
NO. WR-73,203-03
=========================================
EX PARTE KEVIN EDWARD CONNORS,
Applicant
===========================================================================================
ON APPLICATION FOR A WRIT OF HABEAS
CORPUS CAUSE NO. 937946-B IN THE 339TH
DISTRICT COURT FROM HARRIS COUNTY
===========================================================================================
Per curiam. Yeary, J., concurred.
ORDER
(Filed Apr. 1, 2020)
A jury convicted Applicant of murder, and the trial
court assessed a forty-five year prison sentence. The
Fourteenth Court of Appeals affirmed the conviction.
Connors v. State, No. 14-05-00126-CR (Tex. App.—Houston [14th Dist.] del Aug. 10, 2006). Applicant filed a
pro se application for a writ of habeas corpus that this
Court denied on September 14, 2011. Applicant later
filed, through habeas counsel, this subsequent application for a writ of habeas corpus. See TEX. CODE CRIM.
PROC. art. 11.07.

App. 2
Applicant contends that the State failed to disclose exculpatory evidence regarding the victim’s bad
character—several police reports—and that the State
presented evidence of the victim’s good character—his
attending a Christian school—that left a false impression. See Brady v. Maryland, 373 U.S. 83 (1963); United
States v. Bagley, 473 U.S. 667 (1985); Alcorta v. Texas,
355 U.S. 28 (1957); Ex parte Weinstein, 421 S.W.3d 656
(Tex. Crim. App. 2014); Ex parte Ghahremani, 332
S.W.3d 470 (Tex. Crim. App. 2011) Ex parte Chabot, 300
S.W.3d 768 (Tex. Crim. App. 2009). The trial court conducted an evidentiary hearing. It has entered findings
and recommends that habeas relief be granted on both
grounds. The State objects.
This Court has independently reviewed the trial
and habeas records, including the reporter’s record of
Applicant’s trial. The trial court’s habeas findings and
recommendation are not supported by the record. Regarding the State’s alleged failure to disclose exculpatory evidence, Applicant fails to show materiality.
There is not a reasonable probability, considering the
totality of the evidence, that the result of proceeding,
either at guilt-innocence or at punishment, would have
been different had the allegedly suppressed evidence
been disclosed. This claim is denied.
Regarding the State’s presentation of evidence
that allegedly left a false impression, Applicant fails to
show that the State presented any false or misleading
testimony or that the State presented any evidence
that created a false impression. To the extent that the
claim is based on the “newly discovered” police reports,

App. 3
it lacks merit and is denied. Otherwise, this claim is
dismissed as subsequent. See TEX. CODE CRIM. PROC.
art. 11.07 § 4; Ex parte Whiteside, 12 S.W.3d 819 (Tex.
Crim. App. 2000); Ex parte Brooks, 219 S.W.3d 396
(Tex. Crim. App. 2007).
Filed: April 1, 2020
Do not publish

App. 4
IN THE 339th DISTRICT COURT
OF HARRIS COUNTY, TEXAS
EX PARTE
KEVIN CONNORS

§
§ CAUSE NO. 937946-B
§

APPLICANT’S PROPOSED FINDINGS
OF FACT AND CONCLUSIONS OF LAW
(Filed May 22, 2019)
The Court, having considered the application for a
writ of habeas corpus, the supporting brief and exhibits, and the official court records from the trial court
proceeding and the habeas corpus proceeding, makes
the following findings of fact and conclusions of law:
PROCEDURAL AND FACTUAL BACKGROUND
1.

Applicant was indicted for murder in cause
number 937946 in the 339th District Court
of Harris County on April 17, 2003. He pled
not guilty before the Honorable Caprice Cosper.

2.

The indictment alleged that on or about January 30, 2003, applicant intentionally and
knowingly caused the death of Adrian Heyne
by driving his motor vehicle towards Heyne
and causing it to collide with him, and that,
intending to cause serious bodily injury, applicant caused Heyne’s death by intentionally and knowingly committing an act clearly
dangerous to human life (C.R. 15). It also

App. 5
alleged in an enhancement paragraph that
he was a second offender.
3.

Jones W. Roach, Jr., and Jeffrey Hale represented applicant at trial.
A.

The State’s Case

4.

Applicant, Frank Lucero, and Sara Alexander had dinner and drinks on January 29,
2003 (5 R.R. 115-16, 121, 123, 127). Applicant
drove them in an SUV (5 R.R. 121-22). After
dinner they continued to drink at several
bars, including Rick’s, a topless club, and
Sam’s Boat, where applicant saw his exgirlfriend, Heather Brauninger (5 R.R. 12425, 129-31).

5.

Brauninger, who was under 21, was a bartender at Sam’s Boat, and applicant was a
customer (4 R.R. 159-60, 164, 232). She socialized with him but denied dating him (4
R.R. 165-66, 231). She socialized with Adrian
Heyne daily and reluctantly admitted that
they were intimate (4 R.R. 168, 230). Heyne
was an unemployed, 34-year-old bouncer (4
R.R. 168-70, 179).

6.

Brauninger had finished her shift at Sam’s
when applicant, Lucero, and Alexander entered (4 R.R. 172-73). She joined them at
Rick’s next door, where they drank for about
an hour while she waited for Heyne to finish
his bouncer shift (4 R.R. 175, 178-79).

App. 6
7.

Brauninger walked back to Sam’s; applicant’s group drove (4 R.R. 180). They saw
Heyne outside Sam’s (5 R.R. 132-33).

8.

An off-duty Harris County Sheriff ’s Office
detective who was working an extra, private
security job at Sam’s had kicked Heyne out
of the bar, followed him outside, and saw him
remove his shirt and approach an SUV in the
parking lot (3 R.R. 22-28). Heyne had a
heated argument with applicant, who was in
the SUV (3 R.R. 27-28, 34, 76). Heyne was
large, muscular, aggressive, and spoke in a
loud, confrontational voice (3 R.R. 46-47, 6467; 5 R.R. 138). He confronted applicant, was
pissed off, and they argued; Heyne tried to
start a fight with applicant, punched him in
the jaw, and slammed the car door into him
(5 R.R. 135-39, 185-86).

9.

Brauninger admitted that Heyne, who was
intoxicated, was the aggressor and provoked
applicant (4 R.R. 229-30).

10.

Applicant feared Heyne and did not want to
fight him (5 R.R. 141).

11.

Applicant, Lucero, and Alexander left in applicant’s SUV; Heyne left in his car (3 R.R.
29-30; 5 R.R. 140). Brauninger and Heyne
went to Jaxx, another bar across the street
from Sam’s (4 R.R. 170-71, 188- 89). Applicant did not follow them (4 R.R. 235).

12.

Brauninger and Heyne continued to drink
for an hour (4 R.R. 190-91). He was a danger
to himself and to her (4 R.R. 240).

App. 7
13.

Applicant, Lucero, and Alexander drove to a
friend’s house, got stuck in the mud, were
pulled out by a tow truck, and then went to
Jaxx (5 R.R. 142-44). Lucero was the front
passenger, and Alexander was in the back
seat (5 R.R. 147-48).

14.

Applicant entered the driveway to Jaxx and
immediately stopped when he unexpectedly
saw Heyne and Heyne’s car (5 R.R. 145, 147,
198). Applicant had not been looking for
Heyne (5 R.R. 176).

15.

Heyne exited Jaxx and vomited in the
bushes; Brauninger entered the driver’s seat
of his car (4 R.R. 192-93). She saw applicant’s
SUV enter the parking lot driveway (4 R.R.
193-96).

16.

Heyne took off his shirt, revealing a large
tattoo covering his entire back, and stretched
as if preparing to fight (5 R.R. 148, 199). He
looked pissed off (5 R.R. 210). Only 10-15 feet
away, he began running towards the driver’s
side of the SUV; and Lucero yelled at applicant to leave (5 R.R. 150-55, 200, 204, 23233).

17.

Brauninger yelled at Heyne to get in his car
because she knew that he would cause trouble, but he continued towards the driver’s
side of the SUV (4 R.R. 205-06, 226; 5 R.R.
24). She thought there would be a fight if he
knew that she had been with applicant earlier that night (5 R.R. 25-26).

App. 8
18.

Daniel Garza patronized Jaxx on the night of
the incident (5 R.R. 34-36). He met Heyne
that night but did not know applicant (5 R.R.
33). He drank eight beers and four shots in
four hours and was waiting in the parking lot
for a taxi when he heard Heyne and Brauninger argue as she begged him to enter the
car (5 R.R. 38-44). Heyne was watching an
SUV on a side street, appeared afraid, and
asked Garza to request help from the
bouncer (5 R.R. 45-49). Garza saw the SUV
in the driveway not moving (5 R.R. 52).
Heyne stood still in the parking lot and did
not run towards it, but gestured with machismo as if he was not going to back down
(5 R.R. 54-55, 89, 100-01).

19.

Brauninger testified that Heyne approached
the SUV with “swagger” but did not run (4
R.R. 207, 224, 241). She admitted that he was
intoxicated and mad and was the first aggressor (5 R.R. 22, 24).

20.

Lucero testified that applicant accelerated,
swerved to the right and away from Heyne,
and did not hit him (5 R.R. 154-56, 176, 205).
Heyne “pushed off ’ the front center of the
hood and was on it a couple seconds (5 R.R.
156-59, 166). While Heyne was on it, applicant turned left to avoid hitting a fence (5
R.R. 216-17).

21.

Lucero believed that Heyne was trying to remove applicant from the SUV (5 R.R. 177).
The SUV was not driving fast, and Heyne did
not fly over it (5 R.R. 166-67, 208). Applicant

App. 9
said, “He’s coming after us,” and did not stop
or exit the SUV (5 R.R. 167-68). Lucero replied, “Go. Go. Go.”
22.

Brauninger testified that, when Heyne was
within four feet of the SUV, it accelerated towards him and hit him, he went on the hood,
and he “flew off ” (4 R.R. 206-10, 223, 225,
245). She saw him on the ground bleeding (4
R.R. 210). He did not try to avoid applicant,
and she did not know if applicant turned the
SUV (4 R.R. 245-48). It drove away without
stopping (4 R.R. 214-15).

23.

Brauninger did not see how the SUV struck
Heyne because it happened so fast (5 R.R.
21). She did not remember the SUV slamming on the breaks, nor did she know how
fast it was driving (4 R.R. 256, 259).

24.

Garza heard tires peel out, turned around,
and saw the front hood of the SUV hit Heyne
(5 R.R. 56, 93). Heyne went over the hood,
landed on the ground, and hit his head on the
concrete (5 R.R. 57, 9394). He did not ride on
the hood, but flipped up in the air and over it
(5 R.R. 104). The driver did not appear to try
to avoid hitting Heyne and did not stop (5
R.R. 57, 64-65, 94). Garza could not identify
the driver (5 R.R. 101-02). The event lasted
ten seconds (5 R.R. 58).

25.

Garza called 911 (5 R.R. 57, 59). He panicked
because he had been drinking and left before
the police arrived (5 R.R. 67, 110, 113).

App. 10
26.

Applicant drove to his ex-girlfriend Marie
Farrell’s house (5 R.R. 168). They arrived
about 2:15 a.m., stayed about 35-40 minutes,
and drove home (5 R.R. 168-72). They did not
call the police because they did not know
that Heyne was injured and thought that
they had avoided a fight (5 R.R. 172).

27.

I.M. Labdi, a Houston Police Department
(HPD) accident investigator, inspected the
scene and saw blood, tire tracks, and acceleration marks at the parking lot entrance and
skid marks at the fence (3 R.R. 79-80, 94).
The marks curved to the right; were made by
the same car; and were consistent with a car
accelerating, hitting and carrying a person,
turning to the right, and slamming on the
brakes (4 R.R. 14, 21-22, 72). They were not
consistent with a person being hit and pushing off the car (4 R.R. 22-23). He concluded
that the marks and location of the body were
from the same incident (4 R.R. 23-24).

28.

A car traveling less than 14 miles per hour
will not cause fractures to a person hit by it
(4 R.R. 67). A car with a low front end traveling between 14 and 25 miles per hour will
flip him onto it upon impact (4 R.R. 67-68).
An SUV has a higher front end, will knock
him back or on the ground, but will not flip
him onto the hood (4 R.R. 68). Traveling more
than 35 miles per hour, it will knock him onto
the hood (4 R.R. 69). He will have fractures if
impacted at more than 14 or 25 miles per
hour (4 R.R. 69-70, 80). To end up on the hood
of an SUV traveling at a lower speed, he

App. 11
would have to lift himself onto it (4 R.R. 7172). If he approached a car as it accelerated
and turned to the right, the collision likely
would knock him back and to the driver’s
side (4 R.R. 81-82). If he put his arms up to
resist the impact, it could cause him to be
lifted onto the hood and carried (4 R.R. 88).
It is possible for a person to confront an accelerating car, the car to turn to avoid a collision, the person to move in front of it and
be carried along, the car to stop, and the person to be thrown from it (4 R.R. 89).
29.

A set of tire marks at the scene was 22 feet
long and curved continuously (4 R.R. 92, 97,
117-19).

30.

Brauninger gave applicant’s name to police
on January 30, 2003, and identified him in a
photospread (5 R.R. 286, 290-91).

31.

HPD homicide sergeant C.E. Elliott went to
applicant’s mother’s residence and told her
that he needed to talk to applicant (5 R.R.
29394). She made a phone call and gave Elliott the phone (5 R.R. 295). Applicant identified himself and said that he had been at
home with his friends Frank and Sara but
did not know how to contact them (5 R.R.
296-97). Applicant agreed to meet Elliott
that night but did not appear (5 R.R. 299,
301).

32.

Applicant was charged with murder that
night based on Brauninger’s statement and
identification (5 R.R. 303; 6 R.R. 19).

App. 12
33.

Elliott went to applicant’s apartment the
next day and saw an SUV in the parking lot
(5 R.R. 304-05).

34.

Brauninger initially lied about her relationship with Heyne because she did not want
her mother to know that she had dated applicant and was at the center of the fatal argument (6 R.R. 16-19).

35.

Dr. Brad Thomas, a neurosurgeon at Ben
Taub hospital, examined Heyne, who had
skull fractures and a subdural hematoma (4
R.R. 128- 29, 133-34, 137-38). Ninety-five
percent of his injuries were to his head; he
had no other fractures to his body (4 R.R.
155-57).

36.

Thomas operated to remove the hematoma
(4 R.R. 140-41). Heyne died several hours
later from a severe closed head injury, probably the result of his head hitting the pavement (4 R.R. 146).

37.

The autopsy revealed that Heyne died from
blunt impact trauma to his head (6 R.R. 51).

38.

Heyne’s blood alcohol content was 0.271,
which was “stuporous” (4 R.R. 150-51; 6 R.R.
96). A blood alcohol content of 0.27 is high
and can be dangerous (6 R.R. 28).

39.

A medical examiner testified that bone fractures in auto-pedestrian accidents begin to
occur when the car is traveling more than 14
miles per hour and become severe at more
than 25 miles per hour (6 R.R. 52, 73-74).
Heyne had no leg or pelvis fractures, but he

App. 13
had a large abrasion on the back of his left
shoulder blade and abrasions and contusions
on the backside of his body (6 R.R. 53, 75, 81).
40.

Heyne’s injuries were consistent with falling
to the ground from the SUV or rolling off the
SUV, landing on the ground, and hitting his
head (6 R.R. 62, 82-83). A person hit by an
SUV would be thrown backward or to the
side (6 R.R. 71).

41.

The SUV likely was traveling less than 14
miles per hour because Heyne had no body
fractures (6 R.R. 87). The head injury was his
only serious bodily injury (6 R.R. 91).
B.

C.

The Defense

42.

Marie Farrell talked to applicant on the
phone on January 30, 2003 (6 R.R. 114-18).
Lucero, Alexander, and he arrived at her
home around 2:30 or 3:00 a.m. and stayed
about two hours (6 R.R. 118-19, 132). He had
mud on his pants and shoes; his jaw was
swollen; and he was embarrassed (6 R.R.
119-22).

43.

Applicant did not testify (6 R.R. 113).

The Jury Charge, Arguments, And Verdict
44.

The court instructed the jury in the charge
on murder, the lesser included offenses of
manslaughter and negligent homicide, and
that voluntary intoxication is not a defense
(C.R. 149-51, 153).

App. 14
45.

The prosecutor argued that the jury could
not know what applicant was thinking during the incident (7 R.R. 31-32). He was upset
by the first argument with Heyne at Sam’s,
which showed his intent at Jaxx (7 R.R. 34,
37-38). Garza saw the SUV on a side street,
which showed that applicant was waiting for
Heyne to leave Jaxx (7 R.R. 39-40). Applicant
taunted and lured Heyne (7 R.R. 41). Hitting
Heyne with the front center of his SUV
demonstrated intent (7 R.R. 43). Heyne’s
head only hit the pavement because he was
hit by the SUV, which was traveling under 14
miles per hour (7 R.R. 45-46). Applicant
made evasive, false statements to Elliott (7
R.R. 53-54).

46.

The defense argued that applicant was not
guilty of murder because there was no evidence that he intended to cause Heyne’s
death or serious bodily injury, and that he
was not guilty of manslaughter and criminally negligent homicide because driving under 14 miles per hour and turning the SUV
away from Heyne were neither reckless nor
negligent (7 R.R. 7, 26-28). Had he intended
to cause death or serious bodily injury, he
would have driven as fast as possible (7 R.R.
22-23). Heyne was grossly intoxicated, acting
crazy and ready to fight, and was the first aggressor in both incidents; and Brauninger
begged him to enter the car because she
knew that he was capable of extreme violence (7 R.R. 8, 11-12, 16). Applicant feared
him and accelerated to escape him (7 R.R. 7,
10). Had applicant intended to kill Heyne, he

App. 15
would not have done so in front of witnesses
who knew him and in a busy area of bars
populated by police officers (7 R.R. 13).
47.

The defense tried to discredit Brauninger
and Garza, the only witnesses whose testimony damaged applicant. Brauninger did
not remember that night and relied on her
written statements (7 R.R. 16). She lied to
the police about her relationships with
Heyne and applicant (7 R.R. 17). She lied
about the SUV driving straight toward
Heyne when, in fact, the skid marks curved
continuously (7 R.R. 1718). She lied about
applicant “gunning” the SUV when, in fact, it
was driving under 14 miles per hour at impact (7 R.R. 18). She lied about identifying
applicant as the driver when, in fact, she did
not see the driver (7 R.R. 20-21). Yet, the police charged applicant with murder based
only on her false statement and identification and without completing the investigation (7 R.R. 21).

48.

The defense also discredited Garza, who was
intoxicated and fled the scene before the police arrived (7 R.R. 14-15). Jaxx’s owner/
manager encouraged him to contact the police two weeks after the incident to protect
Jaxx from civil liability by blaming applicant
for causing Heyne’s death. Moreover, he lied
about Heyne’s body flipping over the SUV,
which was impossible given its speed, the absence of body fractures, and the body’s location in relation to the skid marks.

App. 16
49.

Finally, the defense argued that the medical
and police testimony established that the evidence was consistent with Heyne charging
at the SUV, grabbing the hood, riding on it,
falling off, and sustaining fatal head injuries
(7 R.R. 21-22).

50.

The jury sent two notes. It disagreed about
Lucero’s testimony regarding the SUV’s location before entering the parking lot, and it
wanted to see the evidence (C.R. 160-61,
164).

51.

The jury convicted applicant of murder (C.R.
157; 7 R.R. 57).
D.

The Sentencing Hearing

52.

Applicant elected the court for punishment
(C.R. 101).The Honorable Caprice Cosper
conducted a pre-sentence investigation and a
sentencing hearing five months after the
trial.

53.

Applicant pled true to the enhancement paragraph alleging a prior conviction for aggravated assault (8 R.R. 4-5).

54.

The State rested without presenting evidence.

55.

Applicant presented a case in mitigation of
punishment. Several witnesses testified to
their opinions that Heyne’s death was an accident (8 R.R. 14, 37, 47, 54, 66). Lucero testified that applicant was intoxicated (8 R.R.
22-23). Farrell testified that applicant was

App. 17
upset when he learned that Heyne died (8
R.R. 45-46).
56.

A jail chaplain testified that applicant was
an immature child in a man’s body (8 R.R.
64). The prosecutor elicited on crossexamination that applicant was segregated
from the general jail population because of a
dispute with another inmate (8 R.R. 72).
However, the State did not present any evidence of disciplinary problems in jail.

57.

Applicant’s mother raised him alone, and he
did not know his father (8 R.R. 51-52). He began using drugs as a teenager, and they were
his biggest problem (8 R.R. 52-53, 55). He
tried a drug rehab program in 1985 (8 R.R.
56). His mother did not know until now that
he suffered from bi-polar disorder (8 R.R. 53).

58.

Applicant testified that he drank alcohol and
used cocaine that night and went to Jaxx for
another drink because he is an alcoholic (8
R.R. 76-79, 90-91). He did not retaliate when
Heyne attacked him at Sam’s (8 R.R. 85-87).
When Heyne charged his SUV at Jaxx, he
turned it to leave and avoid hitting Heyne,
who jumped in front of the SUV and pushed
off it (8 R.R. 94, 97, 105). Heyne fell and
landed on his head (8 R.R. 99). Applicant was
scared for his life and did not intend to kill
Heyne (8 R.R. 98, 105). He would not have
left the scene had he known that Heyne was
hurt badly (8 R.R. 102).

59.

The defense asked the court to find that applicant acted in sudden passion arising from

App. 18
an adequate cause because Heyne provoked
the incident and both were intoxicated (8
R.R. 113-15). Applicant made a quick decision that went the wrong way but did not act
with premeditation (8 R.R. 118-20).
60.

The prosecutor requested at least a 50-year
sentence (8 R.R. 129). Applicant had juvenile
criminal history and adult convictions for aggravated assault and burglary (8 R.R. 12122). Sudden passion did not apply because
applicant asserted that Heyne’s death was
an accident (8 R.R. 126).

61.

The court found that applicant did not act in
sudden passion and assessed punishment at
45 years in prison (8 R.R. 132-34).
E.

62.

F.
63.

The Appeal

The Fourteenth Court of Appeals affirmed
the judgment in an unpublished opinion issued on August 10, 2006. The Court of Criminal Appeals (CCA) refused discretionary
review on February 7, 2007. Connors v. State,
No. 14-05-00126-CR (Tex. App.—Houston
[14th Dist.] 2006, pet. ref ’d).
The First Habeas Corpus Proceeding
Applicant filed a pro se habeas corpus application on March 28, 2008. The CCA denied
relief without written order on September
14, 2011. Ex parte Connors, No. WR-73,20302 (Tex. Crim. App. 2011).

App. 19
CONSIDERATION OF THE MERITS
IN A SUSEQUENT APPLICATION
64.

The CCA may not consider the merits of a
subsequent habeas corpus application unless
it contains sufficient specific facts establishing that either (1) the legal or factual basis
of the claims was unavailable when the previous application was filed or, (2) by a preponderance of the evidence, but for a
violation of the United States Constitution,
no rational juror could have found the applicant guilty beyond a reasonable doubt. See
TEX. CRIM. PROC. CODE art. 11.07, §4(a)
(West 2016).

65.

The legal and factual basis of applicant’s
claims was unavailable when he filed his
first habeas corpus application. The State
suppressed offense reports reflecting that
Heyne previously engaged in violent, aggressive, threatening, and suicidal behavior, including as recently as a few weeks before the
incident that resulted in his death. The offense reports also would have rebutted the
false impression created by the State that
Heyne had good character. The State did not
disclose the reports to the defense before or
during the trial, appeal, or first habeas corpus proceeding.

66.

Only after applicant could afford to hire present counsel to investigate whether there
was a basis to file a subsequent application
did counsel discover the reports in a “work
product” folder in the State’s file. Applicant

App. 20
is incarcerated and could not review the
State’s “work product” folder when he filed
the first habeas application pro se.
67.

Applicant’s claims are not procedurally
barred under article 11.07, § 4, because their
legal or factual basis did not exist when he
filed the first application. See Ex parte William Owens, No. WR-81,480-02 (Tex. Crim.
App. Nov. 7, 2018) (unpublished order) (suppressed police report constitutes newly discovered evidence that may be considered in
subsequent habeas application under article
11.07, § 4).

68.

The court recommends that the CCA consider the merits of this application. To dismiss it would allow the State to benefit from
successfully suppressing evidence beyond
the first habeas proceeding. It would send an
improper message to prosecutors that, as
long as they suppress evidence beyond the
initial habeas proceeding, there are no consequences for such misconduct. That should
not be the law.

App. 21
GROUND ONE
THE STATE’S SUPPRESSION OF POLICE OFFENSE REPORTS REFLECTING THAT THE
COMPLAINANT PREVIOUSLY ENGAGED IN
VIOLENT, AGGRESSIVE, THREATENING, AND
SUICIDAL BEHAVIOR, INCLUDING AS RECENTLY AS A FEW WEEKS BEFORE THE INCIDENT THAT RESULTED IN HIS DEATH,
DENIED APPLICANT DUE PROCESS OF LAW
AND A FAIR TRIAL AT BOTH THE GUILTINNOCENCE AND THE PUNISHMENT STAGES.
A.

The Standard Of Review

69.

Suppression by the prosecution of evidence
favorable to the accused violates due process
where the evidence is material either to guilt
or punishment, irrespective of the good faith
or bad faith of the prosecution. Brady v. Maryland, 373 U.S. 83, 87 (1963); U.S. CONST.
amends. V and XIV.

70.

The prosecution has a duty to disclose favorable evidence, even if it was not requested or
was requested only in a general way, if it
would be “of sufficient significance to result
in the denial of the defendant’s right to a fair
trial.” United States v. Agurs, 427 U.S. 97,
108 (1976). All information known to law enforcement agencies is imputed to the prosecution. Ex parte Adams, 768 S.W. 2d 281, 292
(Tex. Crim. App. 1989).

71.

Impeachment evidence must be disclosed under Brady. Strickler v. Greene, 527 U.S. 262,
281-82 (1999); Giglio v. United States, 405

App. 22
U.S. 150, 153-54 (1972). Impeachment evidence is offered to dispute, disparage, deny,
or contradict. Thomas v. State, 841 S.W.2d
399, 404 (Tex. Crim. App. 1992). “[I]f disclosed and used effectively,” impeachment
evidence is favorable if “it may make the difference between conviction and acquittal.”
United States v. Bagley, 473 U.S. 667, 676
(1985).
72.

The prosecution also must disclose evidence
that could mitigate punishment. See Jones v.
State, 850 S.W.2d 223, 228 (Tex. App.—Fort
Worth 1993, pet. ref d) (new trial required
where State suppressed victim impact statement in which deceased’s wife described
shooting as accident).

73.

Regardless of any defense request, favorable
evidence is material, and constitutional error
results from its suppression by the prosecution, “if there is a reasonable probability
that, had the evidence been disclosed to the
defense, the result of the proceeding would
have been different.” Bagley, 473 U.S. at 682.

74.

A showing of materiality does not require the
defendant to prove that disclosure of the suppressed evidence would have resulted in an
acquittal or a lesser sentence. The question
is not whether he more likely than not
would have received a different verdict, but
whether he received a fair trial, understood
as a trial resulting in a verdict worthy of confidence. Kyles v. Whitley, 514 U.S. 419, 434
(1995).

App. 23
B.

The Undisclosed Evidence

75.

Jennifer Varela, a Harris County District Attorney’s Office (HCDAO) employee, sent a
facsimile to the HPD records division on January 31, 2003, requesting four HPD offense
reports involving Heyne (AX 4). A handwritten note on the facsimile reflects that Varela
sent the offense reports to HCDAO assistant
district attorney Terese Buess on February 6,
2003.

76.

Located in the State’s file in 2012 was a
folder labeled, “Work Product—HPD Record,” which contained Varela’s facsimile and
memorandum and HPD offense reports regarding six unadjudicated incidents involving Heyne between March of 1998 and
December of 2002 (AX 5-10, 11; Oct. 2, 2018
R.R. 14-15). They collectively demonstrate
that he was violent, aggressive, impulsive,
threatening, and suicidal, including as recently as a few weeks before the incident
with applicant.

77.

Because these incidents were unadjudicated,
the reports were not available to defense
counsel or applicant through public records
searches and were discoverable only through
production by the State.

78.

HCDAO assistant general counsel Brian
Rose produced the unadjudicated offense reports to applicant’s habeas counsel in July
of 2012 pursuant to counsel’s Texas Public
Information Act request to review the State’s
file (Oct. 2, 2018 R.R. 4-6, 15-16). He

App. 24
produced the reports as public information
because they did not constitute privileged
attorney work product (Oct. 2, 2018 R.R. 8,
17, 27).
79.

Rose memorialized his production of the offense reports to habeas counsel, but nothing
in the file reflected that the reports had been
produced to any prior counsel for applicant
(Oct. 2, 2018 R.R. 16-18).

80.

Less than two months before Heyne’s death,
on December 11, 2002, his ex-girlfriend, Tina
Horne, called the police to report that he
threatened to kill her (AX 5). They had dated
for a year-and-a half and lived together for a
year. She ended the relationship a month
earlier and told him to move out. He called
her the night of December 11 and told her
that she was a “dead bitch” and he was going
to kill her. She told police that he had been
violent with her in the past and she wanted
to file a charge of terroristic threat, but she
did not pursue the complaint.

81.

Less than three months before Heyne’s
death, about 3:30 a.m. on November 6, 2002,
his then-girlfriend Horne called the police to
report that he had threatened to kill himself
(AX 6). She had ended the relationship that
night, and his car was stolen earlier that day.
He talked about hurting himself and appeared very depressed. He put a gun in his
mouth and threatened to kill himself. She
convinced him to give her the gun before the
police arrived. He told police that he was

App. 25
upset about the theft of his car and was talking nonsense to Horne but denied being suicidal. The police took no further action.
82.

Heyne attended a Halloween party at a residence on October 29, 2000 (AX 7). Michael
Gibbons called the police to report an assault. Heyne lunged at him, knocked him to
the ground, grabbed his neck, and bit his ear
and finger. A crowd of people had to pull
Heyne off Gibbons. Gibbons received medical
treatment from paramedics, and the police
observed abrasions to his ear and a bandage
on his finger. No arrest was made, and no
charge was filed against Heyne.

83.

Less than two weeks before the assault on
Gibbons, Heyne was arrested for public intoxication and open Class C warrants on
October 16, 2000. He tried to buy beer from
a store after hours; when the clerk refused to
sell it, he tried to steal it (AX 8). He yelled at
an off-duty police officer who confronted him
in the parking lot. He was angry, loud, argumentative, combative, vulgar, intoxicated,
and claimed to be a Navy SEAL with “27 confirmed kills to his name.” He yelled, “Fuck
you, cop,” and threatened to sue the city and
officers and to “have their badges.”

84.

Off-duty HPD officers working private security at a nightclub viewed a physical and
verbal altercation between Heyne, who was
the bouncer, and a female patron on June 17,
2000 (AX 9). The woman said that he
grabbed her by the arm twice and caused

App. 26
pain. She initially wanted to press charges
for assault but changed her mind. He denied
touching her, and no charge was filed.
85.

C.

Lori Schultz, Heyne’s then-girlfriend, called
police to report an assault on March 1, 1998
(AX 10). They argued at her apartment, and
he pushed her. She told him to leave, and he
threw objects through two of her windows as
he left. No charge was filed.

The State Suppressed The Offense Reports
86.

Jeffrey Hale represented applicant at trial
along with Roach (AX 2 at 1). Kevin Petroff
represented the State until four months before trial, when Jimmy Ortiz was assigned to
the trial court and to the case. Ultimately,
Ortiz represented the State at trial and at
sentencing.

87.

Roach died in 2011 (AX 2 at 5). However, both
Hale and Ortiz remember applicant’s case
because of the unusual facts; and both were
able to refresh their recollections by reviewing relevant records before providing affidavits and testifying at the evidentiary hearing
(Oct. 2, 2018 R.R. 32-33; Nov. 26, 2018 R.R.
11, 35).

88.

Hale was responsible for pretrial investigation, trial preparation, discovery, and was
more familiar with the evidence than Roach
(Nov. 26, 2018 R.R. 9-10, 27-28, 32). The case
was set for trial, and the State had produced

App. 27
discovery to Hale, before Ortiz was assigned
to handle it (Nov. 26, 2018 R.R. 13-14).
89.

Ortiz tried five other serious felony cases to
a jury verdict in the four months between his
assignment to the court in April of 2004 and
applicant’s trial in August of 2004 (Oct. 2,
2018 R.R. 30-31). He obtained a verdict in
another murder case on August 6, 2004, ten
days before applicant’s trial began (Oct. 2,
2018 R.R. 31-32). He does not recall how
much time he devoted to applicant’s case before August of 2004 (Oct. 2, 2018 R.R. 32).

90.

Hale did not have access to law enforcement
criminal history databases and had to rely on
public databases to investigate Heyne’s
criminal history (Nov. 26, 2018 R.R. 14). Uncharged conduct is not available through
clerks’ offices (Nov. 26, 2018 R.R. 19).

91.

If Hale knows about a criminal incident, he
can have a private investigator try to interview the witnesses to obtain more information and potentially present evidence of
the incident at trial. However, he cannot investigate an incident if he does not know
about it (Nov. 26, 2018 R.R. 14-15).

92.

A public criminal history background check
of Heyne with the Harris County District
Clerk’s Office revealed that he had been
charged with five minor offenses before he
died (AX 2 at 1). He was convicted of misdemeanor DWIs in 1995 and 1998, misdemeanor possession of marijuana in 1999, and
driving while his license was suspended in

App. 28
2001. Another charge of driving while his license was suspended was dismissed in 1995
(AX 2 at 1-2).
93.

Heyne’s public criminal history did not
demonstrate that he had a background of being violent, aggressive, threatening, or suicidal. At most, it suggested that he had a
potential alcohol problem, used marijuana,
and had problems maintaining a valid
driver’s license. None of his public, charged
offenses would have led the defense to discover any of his unadjudicated offenses.

94.

Hale reviewed the State’s file numerous
times while the case was pending (AX 2 at 2;
Nov. 26, 2018 R.R. 16-19). He was not allowed to review any of the State’s “work
product.” He did not know if the State was
withholding any information as “work product.” He did not see anything in the State’s
file—including regarding unadjudicated offenses—reflecting that Heyne had engaged
in violent, aggressive, threatening, or suicidal conduct.

95.

Neither Hale nor Roach saw any of the suppressed offense reports regarding Heyne’s
unadjudicated offenses before or during the
trial (Nov. 26, 2018 R.R. 28). Hale did not see
them until applicant’s habeas counsel
showed them to him in 2014 (Nov. 26, 2018
R.R. 20). They did not know about any of this
information when they tried the case, as the
State did not disclose it to them (AX 2 at 4).
The criminal history background check of

App. 29
Heyne that they conducted with the district
clerk’s office did not reveal any of this information, and they did not have any way of
knowing about these incidents without the
State disclosing them, which did not occur.
96.

Hale would have had a private investigator
interview the witnesses referenced in the offense reports and would have tried to present
as much evidence as possible related to
Heyne’s unadjudicated conduct (Nov. 26,
2018 R.R. 20). He would have subpoenaed
the witnesses to testify at trial; would have
tried to present their testimony at the guiltinnocence stage and, if necessary, at punishment; would have made a bill of exception
had the court excluded any of their testimony; and would have argued that this evidence corroborated the defense (Nov. 26,
2018 R.R. 24-26).

97.

The information contained in the undisclosed offense reports—including that Heyne
was suicidal in the weeks before the incident—was consistent with the defensive theory that he was mad at applicant, ran at the
car, and jumped on the hood to attack applicant (Nov. 26, 2018 R.R. 22-23, 68, 72-73). It
would have rebutted the State’s theory that
Heyne was not aggressive, merely walked towards applicant’s car, and was a good person
because he attended Christian schools (Nov.
26, 2018 R.R. 24, 70-71, 74, 83). It also would
have supported applicant’s request for sudden passion at the punishment stage (Nov.
26, 2018 R.R. 26-27).

App. 30
98.

Had the State disclosed the offense reports
to the defense, Hale would have researched
different theories of admissibility of the information contained in the reports (Nov. 26,
2018 R.R. 75). He would have argued that evidence of Heyne’s aggression, violence,
threats, and suicidal ideation was admissible
through opinion and reputation testimony as
pertinent character traits under Rule of Evidence 404(a)(2) to show Heyne’s reckless
disregard for his own life (Nov. 26, 2018 R.R.
84-86, 89-90, 99). Hale would have argued
that, even if the evidence otherwise was inadmissible, the State opened the door to it
when it elicited that Heyne attended Christian schools (Nov. 26, 2018 R.R. 83). He also
would have argued that evidence of these
character traits would have allowed the
State to offer rebuttal evidence that Heyne
did not possess those traits, but it would not
have opened the door to otherwise inadmissible evidence of applicant’s criminal history
or that applicant possessed the same traits
(Nov. 26, 2018 R.R. 86-89).

99.

The State would not have disclosed information about the unadjudicated offenses
only to Roach but not to Hale (AX 2 at 5; Nov.
26, 2018 R.R. 28). Even had the State disclosed the information to Roach, he would
have shared the information with Hale because Hale was in charge of all pretrial discovery, investigation, and preparation. That
the State never disclosed the information to
Hale indicates that it did not disclose the information to Roach (AX 2 at 6).

App. 31
100. The case had been pending for a long time
before Ortiz was assigned to try it, and other
prosecutors previously had possession of the
State’s file before he inherited the case (AX 3
at 1). Kevin Petroff and Terese Buess worked
on the case before he did. Petroff filed several
notices with the court in February and
March of 2004, and Buess received at least
two memoranda in 2003.
101. Ortiz reviewed the State’s file in late 2013
and saw a folder labeled, “work product” (AX
3 at 1). He did not create the folder, nor were
the words “work product” written in his
handwriting; and the prior prosecutors on
the case organized the file (AX 3 at 1-2; Oct.
2, 2018 R.R. 34-36).
102. Inside the “work product” folder was an inter-office memorandum regarding the case
from Varela to Buess dated January 31, 2003
(AX 3 at 2). Varela discovered that there were
HPD offense reports involving Heyne and
wrote that she would send Buess the reports
when she received them. She noted that
Heyne’s ex-girlfriend had made a terroristic
threat report against him in December of
2002.
103. The “work product” folder contained another
memorandum dated January 31, 2003, from
Varela to the HPD Records Division requesting offense reports related to four incidents
(AX 3 at 2). That memorandum had a handwritten notation in the margin reflecting
that Varela sent the offense reports to Buess

App. 32
on February 6, 2003. Attached to the memorandum were offense reports involving
Heyne as a suspect. Some of them alleged
that he engaged in violent, aggressive,
threatening, and suicidal conduct.
104. Ortiz does not know if these offense reports
were in the State’s file when he handled the
case, but he has no reason to believe that
they were not there (AX 3 at 3; Oct. 2, 2018
R.R. 40-41).
105. Nothing in the State’s file, including the
“work product” folder, indicates that any
prosecutor disclosed these offense reports
to the defense (AX 3 at 3; Oct. 2, 2018 R.R.
41).
106. Ortiz expected that Hale and Roach would
not review any portion of the State’s file labeled “work product” (Oct. 2, 2018 R.R. 4243).
107. Ortiz does not remember if he disclosed the
offense reports to the defense, but his standard procedure would have been to disclose
any “work product” that he was aware of if he
believed that it constituted Brady material
or was mitigating in nature (AX 3 at 3; Oct.
2, 2018 R.R. 41). Having reviewed the reports, he believes that, if they were not disclosed to the defense, they should have been
because they were favorable to applicant.
108. Ortiz had to know about the information contained in the offense reports before he could

App. 33
disclose it to the defense. He possibly did not
know about the contents of the “work product” folder before trial (Oct. 2, 2018 R.R. 4445).
109. The court ordered the State to produce to the
defense arrests and convictions of prosecution witnesses for felonies and crimes of
moral turpitude ten days before trial (Oct. 2,
2018 R.R. 57-58).
110. Heyne was not a prosecution witness, and he
was not arrested for or convicted of any felonies or crimes of moral turpitude (Oct. 2,
2018 R.R. 66-70).
111. Ortiz did not file any notice with the district
clerk that he had produced the unadjudicated offense reports to the defense before
trial, nor did he state on the record that he
had done so.
D. The Suppressed Evidence
Was Favorable To Applicant
112. Had the State disclosed the offense reports
before trial, the defense would have tried to
locate and call the witnesses who had personal knowledge of these incidents at the
guilt-innocence stage (AX 2 at 5; Nov. 26,
2018 R.R. 20, 24-26).
113. The defense would have argued that Heyne’s
background of violent, aggressive, threatening, and suicidal conduct corroborated that
he ran towards applicant’s SUV, jumped on

App. 34
the hood in an attempt to attack applicant,
and pushed himself off as applicant tried to
drive away. They would have argued that
this evidence undermined the State’s theory
that Heyne merely walked towards the SUV
and applicant intentionally hit him with the
front of it.
114. They also would have argued that Heyne’s
threat to commit suicide in November of
2002, less than two months before he died, was
consistent with his erratic, self-destructive
conduct on this occasion.
115. The suppressed evidence would have been
admissible at the guilt-innocence stage to
prove character traits that were consistent
with charging applicant’s SUV and jumping
on the hood to attack him. Through testimony from Brauninger and Garza, the State
disputed whether Heyne aggressively ran towards the SUV.
116. Evidence of a complainant’s pertinent character trait is admissible when offered by the
accused in a criminal case to prove action in
conformity therewith on a particular occasion. TEX. R. EVID. 404(a)(2). The prosecution then may offer rebuttal evidence to show
that the complainant does not possess the
pertinent character trait. Id.
117. Under this theory of admissibility, it does not
matter whether the defendant is aware of
the character trait at the time of the incident. Ex parte Miller, 330 S.W.3d 610, 619
(Tex. Crim. App. 2009). “The chain of logic is

App. 35
as follows: a witness testifies that the victim
made an aggressive move against the defendant; another witness then testifies about
the victim’s character for violence, but he
may do so only through reputation and opinion testimony under Rule 405(a).” Id. The defendant may not offer evidence of specific
instances of the complainant’s conduct but
may offer evidence of the character trait
through general reputation or opinion testimony. Tate v. State, 981 S.W.2d 189, 192-93
(Tex. Crim. App. 1998).
118. Additionally, a defendant charged with an
assaultive offense, as applicant was, may offer evidence concerning the complainant’s
character for violence or aggression. Miller,
330 S.W.3d at 618. First, the defendant may
offer reputation or opinion testimony or evidence of specific prior acts of violence by the
complainant to show the “reasonableness of
the defendant’s claim of apprehension of
danger” from the complainant. Id. Applicant
knew Heyne and his character for violence
and aggression, as Heyne argued with and
assaulted applicant earlier that night at
Sam’s Boat.
119. Under either theory of admissibility, applicant could have called the police officers and
lay witnesses referenced in the suppressed
offense reports to testify to Heyne’s violent,
aggressive, impulsive, threatening, and suicidal character traits from March of 1998 to
December of 2002, including only a few

App. 36
weeks before the incident that resulted in his
death. This evidence was especially relevant
where his blood-alcohol concentration was
0.27 because his intoxication may have resulted in lowered inhibitions, rash decisions,
and an agitated state.
120. “The criminal provision [of Rule 404(a)(2)] is
not limited to self-defense claims and violent
character.” Goode, Wellborn, & Sharlot,
Courtroom Handbook on Texas Evidence,
Texas Practice Series, vol. 2A, 2010 ed., Rule
404(a), Author’s Comment (2) at 383.
121. A separate rationale supports the admission
of evidence of Heyne’s prior specific acts of
violence when offered for a non-character
purpose—such as his specific intent, motive
for an attack on the defendant, or hostility—
in the particular case. Miller, 330 S.W.2d at
620. This extraneous conduct evidence may
be admissible under Rule of Evidence 404(b).
See Torres v. State, 117 S.W.3d 891, 896-97
(Tex. Crim. App. 2003); Tate, 981 S.W.2d at
193 (evidence of complainant’s prior specific
acts may shed light on his intent or motive
in confrontation with defendant).
122. The evidence established that Heyne was
hostile towards applicant and motivated to
attack him because Brauninger had socialized with him earlier that night, and Heyne
assaulted applicant at Sam’s.
123. Evidence of the most recent incidents in November and December of 2002 was admissible to show Heyne’s suicidal and impulsive

App. 37
tendencies, which would have been admissible to explain why he ran towards and
jumped on a moving SUV.
124. Alternatively, even if the suppressed evidence would have been inadmissible in the
first place, the State opened the door to it
when it presented testimony from Claudio
Heyne, Adrian’s brother, that Adrian attended Christian schools (6 R.R. 106). This
testimony, admitted during the guilt-innocence stage, created a false impression that
Adrian had good character. Evidence of
Heyne’s violent, aggressive, impulsive,
threatening, and suicidal background would
have been admissible to rebut this false impression.
125. Otherwise inadmissible evidence may become admissible when a party opens the door
to it. See, e.g. Renteria v. State, 206 S.W.3d
689, 697-98 (Tex. Crim. App. 2006). A party
opens the door by leaving a false impression
with the jury that invites a response. Daggett v. State, 187 S.W.3d 444, 452 (Tex. Crim.
App. 2005). A witness opens the door to rebuttal character evidence in a homicide case
by placing the complainant’s peaceable character at issue. TEX. R. EVID. 404(a)(2); Harrison v. State, 241 S.W.3d 23, 25-28 (Tex.
Crim. App. 2007) (trial court did not abuse
discretion by allowing rebuttal character evidence from State after defense witness testified defendant was “good” and “sweet”).
Evidence of a complainant’s specific bad acts
is admissible to impeach a character

App. 38
witness’s testimony that he was peaceful.
Miller, 330 S.W.3d at 620-21.
126. Had applicant offered evidence of Heyne’s
bad character, Rule 404(a)(2) would have allowed the State to offer rebuttal evidence of
Heyne’s peaceable character in the form of
reputation or opinion testimony. Kolar v.
State, 705 S.W.2d 794, 798 (Tex. App.—Houston [1st Dist.] 1986, no pet.). However, the
Texas Rules of Evidence would not have permitted the State to admit evidence that applicant possessed the same bad character
traits. Goode, Wellborn, & Sharlot, Courtroom Handbook on Texas Evidence, Texas
Practice Series, Author’s Comment (8) at
373.
127. The court finds that the suppressed evidence
was favorable to applicant because it would
have been admissible at the guilt-innocence
stage under multiple theories.
128. Had the trial court excluded properly offered
evidence regarding Heyne’s pertinent character traits, an appellate court probably
would have reversed any conviction.
129. Hale elicited from the off-duty detective who
was working private security at Sam’s that
Heyne was aggressive during the encounter
(Nov. 26, 2018 R.R. 93-98). The trial court did
not rule that Hale had opened the door to evidence of applicant’s prior criminal history,
nor did the State offer such evidence or argue
that he did.

App. 39
130. Had the defense properly offered evidence
regarding Heyne’s pertinent character traits
and provided the trial court with the applicable law, the trial court probably would
have permitted applicant to present that evidence and ruled that he did not open the
door to his bad character traits and criminal
history.
131. Had the trial court admitted properly offered
evidence regarding Heyne’s pertinent character traits but also admitted evidence of applicant’s bad character traits or criminal
history over objection, an appellate court
probably would have reversed any conviction.
132. Additionally, the suppressed evidence was
favorable because it also would have been
admissible at the punishment stage. In a
non-capital felony trial, evidence is admissible during the punishment stage if “the court
deems [it] relevant to sentencing.” TEX.
CRIM. PROC. CODE art. 37.03, §3(a)(1). Evidence is relevant to sentencing if it helps the
factfinder decide what sentence is appropriate for a particular defendant given the facts
of the case. Humaran v. State, 478 S.W.3d
887, 904 (Tex. App.—Houston [14th Dist.]
2015 pet. ref ’d).
133. Evidence of Heyne’s violent, aggressive, impulsive, threatening, and suicidal background was admissible at the punishment
stage because it was relevant to whether applicant acted in sudden passion arising from
adequate cause; and, even if he did not, it

App. 40
was relevant to applicant’s personal responsibility and moral blameworthiness given
the specific facts of the case. See Hernandez
v. State, 127 S.W.3d 206, 214 n.5 (Tex. App.—
Houston [1st Dist.] 2003, pet. ref ’d) (deceased’s past conduct relevant to whether defendant acted in sudden passion because can
help place deceased’s provocation in context
at time of offense); Hayden v. State, 296
S.W.3d 549, 552 (Tex. Crim. App. 2009) (“Victim character and victim impact evidence,
both good and bad, are admissible during the
punishment phase if the factfinder may rationally attribute the evidence to the accused’s ‘personal responsibility and moral
culpability.’) (emphasis added).
134. Even had the jury convicted applicant of
murder despite knowing the suppressed evidence, the defense would have argued that it
mitigated his punishment (AX 2 at 5). He
asked the court to make a sudden passion
finding, but it refused. Evidence that Heyne
commonly behaved in a violent, aggressive,
impulsive, threatening, and suicidal manner
would have been relevant to whether applicant acted in sudden passion with adequate
cause and to his personal responsibility and
moral blameworthiness under the circumstances.
135. Had the trial court excluded properly offered
evidence regarding Heyne’s pertinent character traits at the punishment stage, an appellate court probably would have vacated
the sentence.

App. 41
E.

Materiality At The Guilt-Innocence Stage
136. The State presented evidence from Brauninger and Garza that Heyne walked towards
applicant’s SUV, but did not run; that he
stood still in the parking lot; and that applicant hit him with the front of the SUV.
137. Heyne had a documented history of violent,
aggressive, impulsive, threatening, and suicidal behavior, including within a few weeks
of the incident.
138. The suppressed evidence would have put the
case in an entirely different light with the
jury because it would have corroborated
Lucero’s testimony and the defense’s theory
that Heyne aggressively ran towards the
SUV, jumped on the hood to attack applicant,
and pushed off as applicant drove away. This
theory was consistent with the physical evidence and expert testimony. However, in the
absence of the suppressed evidence, the jury
rejected it and believed the testimony of
Brauninger and Garza instead of Lucero regarding Heyne’s conduct.
139. The State’s suppression of the offense reports undermines the integrity of the criminal justice system. This evidence was
material to whether Heyne ran towards applicant’s SUV, jumped on the hood to attack
applicant, and pushed off as applicant drove
away, or whether Heyne merely walked toward the SUV, or stood still, and applicant
intentionally hit him with the front of it. This
evidence puts the case in such a different

App. 42
light as to undermine confidence in the verdict. See Kyles, 514 U.S. at 435.
140. There is a reasonable probability that, had
the State disclosed the offense reports, the
jury would have acquitted applicant or convicted him of manslaughter or negligent
homicide.
141. Applicant is entitled to a new trial.
F.

Materiality At The Punishment Stage

142. Applicant asked the court to find that he
acted in sudden passion arising from adequate cause (8 R.R. 113-15).
143. “Sudden passion” means passion directly
caused by and arising out of provocation by
the person killed, which passion arises at the
time of the offense and is not solely the result
of former provocation. TEX. PENAL CODE
§19.02(a)(2).
144. “Adequate cause” means cause that would
commonly produce a degree of anger, rage,
resentment, or terror in a person of ordinary
temper, sufficient to render the mind incapable of cool reflection. Id. at §19.02(a)(1).
145. If the defendant proves sudden passion by a
preponderance of the evidence, the offense is
reduced to a second degree felony. Id. at
§ 19.02(d).
146. The trial court found that applicant did not
act in sudden passion (8 R.R. 132).

App. 43
147. Even had the jury convicted applicant of
murder, the suppressed evidence was material to punishment because it probably would
have resulted in a lesser sentence. Had the
court known about Heyne’s recent history of
behavior, it probably would have found that
applicant acted in sudden passion arising
from adequate cause. Such a finding would
have reduced the offense of conviction to a
second degree felony. Even had it found the
enhancement paragraph true, it probably
would have assessed a sentence less than 45
years.
148. Even had the court not found that applicant
acted in sudden passion, the suppressed evidence probably would have resulted in a
lesser sentence because it would have made
applicant less personally responsible and
morally blameworthy under the circumstances. See Hayden, 296 S.W.3d at 552.
149. Applicant is entitled to a new punishment
hearing even if the suppressed evidence was
immaterial to guilt-innocence.

App. 44
GROUND TWO
THE STATE’S USE OF EVIDENCE THAT CREATED THE FALSE IMPRESSION THAT THE
COMPLAINANT HAD GOOD CHARACTER DENIED APPLICANT DUE PROCESS OF LAW
AND A FAIR TRIAL AT BOTH THE GUILTINNOCENCE AND THE PUNISHMENT STAGES.
A.

The Standard Of Review

150. The use of false testimony by the prosecution
violates due process. Giglio, 405 U.S. at 154;
Adams, 768 S.W.2d at 288-89.
151. The testimony need not be criminally perjurious to violate due process. Ex parte
Ghahremani, 332 S.W.3d 470, 477 (Tex.
Crim. App. 2011). It is sufficient that the testimony was “false.” Ex parte Robbins, 360
S.W.3d 446, 459 (Tex. Crim. App. 2011).
152. A witness’s intent in providing false or misleading testimony, and the State’s intent in
introducing that testimony, are not relevant
to false-testimony due process analysis. Id.;
Ex parte Chavez, 371 S.W.3d 200, 208 (Tex.
Crim. App. 2012). A prosecutor cannot knowingly allow a witness to create a false impression of the facts. Alcorta v. Texas, 355 U.S. 28,
31-32 (1957); Davis v. State, 831 S.W.2d 426,
439 (Tex. App.—Austin 1992, pet. ref ’d); see
also Ghahremani, 332 S.W.3d at 477 (where
State suppressed offense report that demonstrated witness testified falsely, court addressed matter as false-testimony claim).

App. 45
153. The defendant must show that the testimony
was false or misleading and was material. He
need not show that the prosecutor knew that
it was false or misleading to obtain relief.
Ex parte Chabot, 300 S.W.3d 768, 771 (Tex.
Crim. App. 2009). “It does not matter
whether the prosecutor actually knows that
the evidence is false; it is enough that he or
she should have recognized the misleading
nature of the evidence.” Duggan v. State, 778
S.W.2d 465, 468-69 (Tex. Crim. App. 1989).
154. Materiality exists when there is any “reasonable likelihood” that the false testimony affected the outcome. Agurs, 427 U.S. at 103;
see also Napue v. Illinois, 360 U.S. 264, 271
(1959) (new trial required if “the false testimony could . . . in any reasonable likelihood
have affected the judgment of the jury”).
155. False testimony is “material unless failure to
disclose it would be harmless beyond a reasonable doubt.” Bagley, 473 U.S. at 680. Thus,
the “reasonable likelihood” standard is
equivalent to the harmless-error standard
for constitutional error, which “requir[es] the
beneficiary of a constitutional error to prove
beyond a reasonable doubt that the error
complained of did not contribute to the verdict obtained.” Id. at 680, n.9 (citing Chapman v. California, 386 U.S. 18, 24 (1967)).
156. “When a habeas applicant has shown that
the State knowingly used false, material testimony, and the applicant was unable to raise
this claim at trial or on appeal, we will grant

App. 46
relief from the judgment that was obtained
by that use.” Ghahremani, 332 S.W.3d at
482-83. This court must determine (1)
whether testimony was false or misleading
and, if so, (2) whether it was material; the
court need not consider whether the constitutional violation was harmful once materiality is established. Ex parte Weinstein, 421
S.W.3d 656, 664-65 (Tex. Crim. App. 2014).
157. The use of false or misleading information by
the prosecution that impacts the punishment assessed also violates due process. Estrada v. State, 313 S.W.3d 274, 286-88 (Tex.
Crim. App. 2010); Ghahremani, 332 S.W.3d
at 480-81; Ex parte Tiede, 448 S.W.3d 456,
459-61 (Tex. Crim. App. 2014) (Alcala, J., concurring).
B.

The False Impression

158. The State presented testimony from Claudio
Heyne, Adrian’s brother, at the end of its
guilt-innocence case (6 R.R. 106).
159. The purported reason for calling Claudio was
to identify Adrian as the deceased in photographs (6 R.R. 108-10).
160. However, the State also elicited that Adrian
attended Christian schools (6 R.R. 106).
161. This testimony created a false impression
that Adrian had good character.

App. 47
162. Evidence of Heyne’s violent, aggressive, impulsive, threatening, and suicidal background would have been admissible to rebut
or correct the false impression created by
Claudio’s testimony.
163. Otherwise inadmissible evidence may become admissible when a party opens the door
to it. See, e.g. Renteria, 206 S.W.3d at 697-98.
A party opens the door by leaving a false impression with the jury that invites a response. Daggett, 187 S.W.3d at 452. A
witness opens the door to rebuttal character
evidence in a homicide case by placing the
complainant’s peaceable character at issue.
TEX. R. EVID. 404(a)(2); Harrison, 241
S.W.3d at 25-28.
164. Evidence of the complainant’s specific bad
acts is admissible to impeach a character
witness’s testimony that the complainant
was peaceful. Miller, 330 S.W.3d at 620-21.
C.

Materiality

165. The State presented evidence at the guilt-innocence stage, which the court likely considered at punishment, that created the false
impression that Heyne had good character
because he attended Christian schools. In
fact, he had a recent history of engaging in
violent, aggressive, impulsive, threatening,
and suicidal behavior.
166. The jury did not know the truth about Heyne
when it convicted applicant, and the court

App. 48
did not know the truth when it assessed punishment.
167. The materiality standard in a false evidence
claim is different from, and less than, the
materiality standard in a suppression-of-evidence claim. Instead of having to prove a
“reasonable probability” of a different outcome, materiality exists when there is any
“reasonable likelihood” that the false testimony affected the outcome. Agurs, 427 U.S.
at 103; Napue, 360 U.S. at 271.
168. The State created the false impression that
Heyne had good character because he attended Christian schools. Had the jury
known that he serially engaged in violent,
aggressive, impulsive, and threatening behavior, there is a reasonable likelihood that
it would have acquitted applicant or convicted him of manslaughter or negligent
homicide.
169. Applicant is entitled to a new trial.
170. Alternatively, even had the jury convicted
applicant of murder, the false impression regarding Heyne’s good character was material
to punishment because there is a reasonable
likelihood that the court would have assessed a lesser sentence.
171. Applicant is entitled to a new punishment
hearing.

App. 49
IN THE 339th DISTRICT COURT
OF HARRIS COUNTY, TEXAS
EX PARTE
KEVIN CONNORS

§
§ CAUSE NO. 937946-B
§

RECOMMENDATION AND ORDER
The Court recommends a new trial or, in the alternative, a new punishment hearing.
The District Clerk is ordered to prepare a transcript of all papers in this cause and send it to the
Court of Criminal Appeals as provided by article 11.07
of the Code of Criminal Procedure. The transcript shall
include certified copies of the following documents:
a.

the application for a writ of habeas corpus;

b.

applicant’s brief;

c.

the exhibits;

d.

the State’s Answer;

e.

applicant’s proposed findings of fact and
conclusions of law;

f.

the State’s proposed findings of fact and
conclusions of law;

g.

the Clerk’s and Reporter’s Records of the
trial court proceeding;

h.

the Reporter’s Record of any habeas corpus proceedings; and

App. 50
i.

the court’s findings of fact and conclusions of law.

The District Clerk shall send a copy of this order
to applicant, his counsel, and counsel for the State.
Signed on ___________________, 2019.
Signed:
5/22/2019

Maria Jackson
Honorable Maria Jackson
Judge Presiding
339th District Court of
Harris County

App. 51
OFFICIAL NOTICE FROM COURT
OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
7/17/2020
CONNORS, KEVIN EDWARD Tr. Ct. No. 937946-B
This is to advise that the applicant’s suggestion for reconsideration has been denied without written order.
Deana Williamson, Clerk

App. 52
IN THE
COURT OF CRIMINAL APPEALS
OF TEXAS
§
§
KEVIN EDWARD CONNORS §
EX PARTE

NO. WR-73,203-03

APPLICANT’S SUGGESTION
FOR RECONSIDERATION
TO THE HONORABLE COURT OF CRIMINAL APPEALS:
Kevin Edward Connors files Applicant’s Suggestion For Reconsideration and would show as follows:
I.
AUTHORITY FOR RECONSIDERATION
This Court may on its own initiative reconsider
the denial of habeas corpus relief. TEX. R. APP. PROC.
79.2(d); Ex parte Moussazadeh, 361 S.W.3d 684, 686
(Tex. Crim. App. 2012).
II.
REASON FOR RECONSIDERATION
I.

Introduction

In its order denying habeas corpus relief, this
Court engaged in a wholesale rejection of the trial
court’s findings of fact and conclusions of law. See Ex

App. 53
parte Connors, WR-73,203-03, 2020 WL 1542424, at *1
(Tex. Crim. App. Apr. 1, 2020) (unpublished) (“This
Court has independently reviewed the trial and habeas records, including the reporter’s record of Applicant’s trial. The trial court’s habeas findings and
recommendation are not supported by the record.”) (emphasis added). This Court’s wholesale rejection was
highly unusual. “[I]t will be under only the rarest and
most extraordinary of circumstances that [this Court]
will refuse to accord any deference whatsoever to the
findings and conclusions as a whole.” Ex parte Reed,
271 S.W.3d 698, 728 (Tex. Crim. App. 2008). In such
“rare” cases, this Court becomes the “ultimate factfinder” and “exercise[s] [its] authority to make contrary or alternative findings and conclusions.” Id. at
727.
As Presiding Judge Keller recognizes, Texas law
does not require this Court’s practice of serving as the
“ultimate factfinder” in habeas corpus cases. See Reed,
271 S.W.3d at 751-52 (Keller, P.J., concurring). Furthermore, the practice is inconsistent with this Court’s role
in other types of cases (and inconsistent with other appellate courts’ practices) and should be discontinued.
This Court’s role as the “ultimate factfinder” violates
due process, at least in a case such as applicant’s—
where the trial court heard live testimony at an evidentiary hearing and issued extensive, detailed predicate fact findings that supported the legal conclusion
that the trial prosecutor violated Brady v. Maryland,
373 U.S. 83 (1963).

App. 54
II.

Procedural History

After conducting an evidentiary hearing with live
testimony, the trial court recommended that this Court
grant habeas relief on applicant’s due process claims
that the State suppressed material evidence and created a false impression about the evidence. The trial
court issued extensive findings of fact and conclusions
of law. This Court denied relief in a short order, stating
in relevant part:
This Court has independently reviewed
the trial and habeas records, including the reporter’s record of Applicant’s trial. The trial
court’s habeas findings and recommendation
are not supported by the record. Regarding
the State’s alleged failure to disclose exculpatory evidence, Applicant fails to show materiality. There is not a reasonable probability,
considering the totality of the evidence, that
the result of proceeding, either at guilt-innocence or at punishment, would have been different had the allegedly suppressed evidence
been disclosed. This claim is denied.
Regarding the State’s presentation of evidence that allegedly left a false impression,
Applicant fails to show that the State presented any false or misleading testimony or
that the State presented any evidence that
created a false impression. To the extent that
the claim is based on the “newly discovered”
police reports, it lacks merit and is denied.
Ex parte Connors, 2020 WL 1542424, at * 1.

App. 55
III. Texas Law Does Not Require this Court to
Be the “Ultimate Factfinder” In a Habeas
Corpus Case, and the Practice Is Inconsistent with this Court’s Function in Other
Types of Cases.
Neither article 11.07 of the Texas Code of Criminal
Procedure nor any other rule or statute requires this
Court’s practice of engaging in de novo fact-finding in
habeas cases. Rather, the Court simply has adopted
this policy over the years. Contrary to this policy and
consistent with the statutory scheme created by the
Legislature, the Court has described the trial court’s
role in habeas corpus proceedings: “The legislative
framework of article 11.071 [which is identical to article 11.07 in this regard] contemplates that the habeas
judge is ‘Johnny-on-the-Spot.’ He is the collector of the
evidence, the organizer of the materials, the decisionmaker as to what live testimony may be necessary,
the factfinder who resolves disputed factual issues, the
judge who applies the law to the facts, enters specific
findings of fact and conclusions of law, and may make
a specific recommendation to grant or deny relief.” Ex
parte Simpson, 136 S.W.3d 660, 668 (Tex. Crim. App.
2004).
In no other type of case does this Court assume the
role of the “ultimate factfinder”—not when reviewing
the sufficiency of the evidence supporting a conviction;1
1

See, e.g., Moreno v. State, 755 S.W.2d 866, 867 (Tex. Crim.
App. (1988) (“[T]he reviewing court is not to position itself as a
thirteenth juror in assessing the evidence. Rather, it is to position
itself as a final, due process safeguard ensuring only the

App. 56
not when reviewing a trial court’s ruling on a pretrial
motion to suppress evidence;2 and not in other types of
habeas corpus cases.3 In all of these scenarios, this
Court is highly deferential to a trial court’s fact findings and does not make independent findings on
rationality of the factfinder. The court is never to make its own
myopic determination of guilt from reading the cold record. It is
not the reviewing court’s duty to disregard, realign or weigh evidence. This the factfinder has already done. The factfinder, best
positioned to consider all the evidence firsthand, viewing the valuable and significant demeanor and expression of the witnesses,
has reached a verdict beyond a reasonable doubt. Such a verdict
must stand unless it is found to be irrational or unsupported by
more than a ‘mere modicum’ of the evidence.”).
2
See, e.g., Guzman v. State, 955 S.W.2d 85, 89 (Tex. Crim.
App. 1997) (“[A]s a general rule, the appellate courts, including
this Court, should afford almost total deference to a trial court’s
determination of the historical facts that the record supports especially when the trial court’s fact findings are based on an evaluation of credibility and demeanor. . . . The appellate courts,
including this Court, should afford the same amount of deference
to trial courts’ rulings on ‘application of law to fact questions,’ also
known as ‘mixed questions of law and fact,’ if the resolution of
those ultimate questions turns on an evaluation of credibility and
demeanor.”).
3
See, e.g., Ex parte Peterson, 117 S.W.3d 804 (Tex. Crim.
App. 2003) (pretrial habeas corpus) (“In reviewing the trial court’s
decision, appellate courts review the facts in the light most favorable to the trial judge’s ruling and should uphold it absent an
abuse of discretion. Reviewing courts, including this Court,
should afford almost total deference to a trial court’s determination of the historical facts that the record supports especially
when the trial court’s fact findings are based on an evaluation of
credibility and demeanor.”) (citation and internal quotation
marks omitted), overruled on other grounds by Ex parte Lewis,
219 S.W.3d 335 (Tex. Crim. App. 2007); Ex parte Garcia, 353
S.W.3d 785, 787 (Tex. Crim. App. 2011) (article 11.072 habeas
corpus) (same).

App. 57
appeal. Other courts, including federal appellate
courts, take this same approach in a wide variety of
contexts. See, e.g., Zenith Radio Corp. v. Hazeltine Research, Inc., 395 U.S. 100, 123 (1969) (“In applying the
clearly erroneous standard to the findings of a district
court sitting without a jury, appellate courts must constantly have in mind that their function is not to decide
factual issues de novo.”).
Appellate review of a trial court’s fact findings is
one thing. Independent factfinding by an appellate
court based on a cold record is quite another. This
Court should abandon its “ultimate factfinder” role in
article 11.07 habeas corpus cases and apply its traditional deferential role. It should reanalyze the trial
court’s findings and conclusions on applicant’s due process claims using the same standard of review that it
employs in all other contexts. If, under that “highly deferential standard,”4 it believes that any of the trial
court’s fact findings are not supported by the record
when viewed in a light most favorable to applicant,
then it should specify which ones are not supported by
the record and remand for additional fact findings or,
if necessary, for further evidentiary development if a
significant fact issue remains unresolved. In no event
should this Court make independent fact findings or
simply engage in a wholesale rejection of the trial
court’s fact findings, many of which unquestionably are
supported by the record in applicant’s case.

4

2013).

State v. Guerrero, 400 S.W.3d 576, 583 (Tex. Crim. App.

App. 58
IV. This Court’s Wholesale Rejection of the
Trial Court’s Fact Findings and Its Independent Factfinding Based on a Cold Record Violated Due Process.
This Court’s wholesale rejection of the trial court’s
many predicate fact findings and its own independent
factfinding based on a cold record were inconsistent
with the proper appellate court function. The Court
also violated applicant’s constitutional right to due
process under the Fourteenth Amendment. By usurping the role of a trial judge, who listens to witnesses
and assesses their demeanor to make credibility determinations and weigh evidence—and, instead, by substituting its own fact findings based on a cold record—
this Court denied applicant the process that he is constitutionally due. Cf. United States v. Raddatz, 447 U.S.
667 (1980) (federal district court’s reliance on fact findings made by magistrate judge in denying pretrial motion to suppress did not violate due process); id. at 681
n.7 (“The issue is not before us, but we assume it is
unlikely that a district judge would reject a magistrate’s proposed findings on credibility when those
findings are dispositive and substitute the judge’s own
appraisal; to do so without seeing and hearing the witness or witnesses whose credibility is in question could
well give rise to serious [constitutional] questions which
we do not reach.”) (emphasis added); see also Louis v.
Blackburn, 630 F.2d 1105, 1109 (5th Cir. 1980) (“Like
the Supreme Court [in Raddatz] . . . , we have severe
doubts about the constitutionality of the district
judge’s reassessment of credibility without seeing
and hearing the witnesses himself. Accordingly, in a

App. 59
situation involving the constitutional rights of a criminal defendant, we hold that the district judge should
not enter an order inconsistent with the credibility
choices made by the magistrate without personally
hearing the live testimony of the witnesses whose testimony is determinative.”). This Court’s “enter[ing] an
order inconsistent with the credibility choices made by
the [trial court] without personally hearing the live
testimony of the witnesses whose testimony is determinative” violated due process. Louis, 630 F.2d at 1109.
CONCLUSION
The Court should reconsider its denial of habeas
corpus relief on its own motion; file and set this case
for submission; reanalyze the trial court’s findings and
conclusions on the due process claims using the same
deferential standard of appellate review that it employs in other contexts; and grant habeas corpus relief
in the form of a new trial or, alternatively, a new punishment hearing.
Respectfully submitted,
/s/ Josh Schaffer
Josh Schaffer
State Bar No. 24037439
1021 Main St., Suite 1440
Houston, Texas 77002
(713) 951-9555
(713) 951-9854 (facsimile)
josh@joshschafferlaw.com
Attorney for Applicant
KEVIN CONNORS

App. 60
CERTIFICATE OF SERVICE
I served a copy of this document on Kristin Assaad,
the prosecutor, by the electronic filing system of the
Court on April 9, 2020.
/s/ Josh Schaffer
Josh Schaffer
CERTIFICATE OF COMPLIANCE
The word count of the countable portions of this
computer-generated document specified by Rule of Appellate Procedure 9.4(i), as shown by the representation provided by the word-processing program that
was used to create the document, is 1,786. This document complies with the typeface requirements of Rule
9.4(e), as it is printed in a conventional 14-point typeface with footnotes in 12-point typeface.
/s/ Josh Schaffer
Josh Schaffer
Automated Certificate of eService
This automated certificate of service was created
by the efiling system. The filer served this document
via email generated by the efiling system on the date
and to the persons listed below. The rules governing
certificates of service have not changed. Filers must
still provide a certificate of service that complies with
all applicable rules.

App. 61
Josh Schaffer
Bar No. 24037439
josh@joshschafferlaw.com
Envelope ID: 42217228
Status as of 04/09/2020 11:11:06 AM -05:00
Case Contacts
Name

BarNumber

Email

Kristin Assaad

24078164

assaad_kristin@
dao.hctx.net

TimestampSubmitted

Status

4/9/2020 11:04:33 AM

SENT

